No. 20-1009
DAVID SHINN, ET AL.,
v.

Petitioners,

DAVID MARTINEZ RAMIREZ AND BARRY LEE JONES,
Respondents.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
one copy of the Brief in Opposition was sent to counsel
for the Petitioners by United States Postal Service
First Class Mail, as well as by transmitting a digital
copy via electronic mail.
Mark Brnovich
Attorney General

Brunn W. Roysden III
Solicitor General

Joseph A. Kanefield
Chief Deputy and Chief
of Staff

Lacey Stover Gard
Chief Counsel
Counsel of Record
Laura P. Chiasson
Ginger Jarvis
JD Nielsen
William Scott Simon
Jeffrey L. Sparks
Assistant Attorneys
General

OFFICE OF THE ARIZONA
ATTORNEY GENERAL
Capital Litigation
Section
400 W. Congress
Bldg. S-215
Tucson, AZ 85701-1367
(520) 628-6250
Lacey.gard@azag.gov
Counsel for Petitioners

/s/ Timothy M. Gabrielsen
Counsel of Record for Respondents

